BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Reply Brief
for Petitioners in 20-544, Alaska Native Village
Corporation Association, Inc., et al.; Janet L. Yellen, in
her official capacity as Secretary of the Treasury v.
Confederated Tribes of the Chehalis Reservation, et al.,
were sent via Next Day Service to the U.S. Supreme
Court, and via Next Day Service and e-mail service to
the following parties listed below, this 9th day of April,
2021:
Riyaz A. Kanji
Kanji & Katzen, PLLC
303 Detroit Street
Suite 400
Ann Arbor, MI 48104
(734) 769-5400
rkanji@kanjikatzen.com

Counsel for Respondents Confederated Tribes of the
Chehalis Reservation, et al.
Nicole E. Ducheneaux
Big Fire Law & Policy Group, LLP
1404 Fort Crook Road South
Bellevue, NE 68005
(406) 493-4693
nduchenea ux@bigfirela w .com

Counsel for Respondent
Cheyenne River Sioux Tribe

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square

' 1300 I Street, NW, Suite 400E
I

Washington, DC 20005

Jeffrey Rasmus sen
Patterson Earnhart Real Bird & Wilson LLP
357 S. McCaslin Boulevard
Suite 200
Louisville, CO 80027
(303) 926-5292
jrasmussen@nativelawgroup.com
Counsel for Respondent
Ute Indian Tribe of the Uintah and
Ouray Reservation

Elizabeth B. Prelogar
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States

Paul D. Clement
Counsel of Record
Erin E. Murphy
Ragan N are sh
Matthew D. Rowen
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 9, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

Q~

c/yk '

Notary Public

%

dcJ a-(

·

~/

[seal]
JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
Febr11ary 14, 2023

